HHS/OIG-Audit--"California: Review of Short/Doyle Medicaid Contract
Rates for Fiscal Years 1985 through 1989, (A-09-92-00094)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"California: Review of Short/Doyle Medicaid Contract Rates for Fiscal
Years 1985 through 1989," (A-09-92-00094)
March 10, 1993
Complete
Text of Report is available in PDF format (1.66 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Short/Doyle is one component of the California Medicaid program. It is a special
program serving the mentally ill, and is operated by the various counties in
California which arrange for hospital and clinic services. In Fiscal Year (FY)
1985, the State began negotiating Short/Doyle contracts with selected counties.
Initially, three counties received contracts. By FY 1988, 14 counties operated
under this arrangement. Our audit disclosed that excessive Medicaid payments
were made to these counties. The payments exceeded Medicaid limits by about
$15 million ($7.5 million Federal share) over 5 years. We recommended that
the State refund the $7.5 million and establish procedures to ensure that payments
are properly limited in the future. State officials did not agree with our
finding and recommendations. However, regional Health Care Financing Administration
officials concurred.